              OFFICE OF
       THE INSPECTOR GENERAL

  SOCIAL SECURITY ADMINISTRATION


THE PHYSICAL SECURITY OF THE SOCIAL SECURITY
  ADMINISTRATION’S CONTRACTOR OWNED AND
     OPERATED OFF-SITE STORAGE FACILITY

      September 2012       A-14-12-11227




    AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY

MEMORANDUM

Date:      September 14, 2012                                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Physical Security of the Social Security Administration’s Contractor Owned and
           Operated Off-site Storage Facility (A-14-12-11227)


           OBJECTIVE
           Our objective was to determine whether the physical security at the Social Security
           Administration’s (SSA) contractor owned and operated off-site storage facility for the
           Second Support Center (SSC) complied with Federal laws, regulations, and contract
           requirements.

           BACKGROUND
           Federal standards provide distinct criteria for contingency, continuity of operations, and
           disaster recovery planning. 1 To help protect SSA’s data for contingency processing and
           disaster recovery purposes, the Agency modified its contract. The total cost of the
           contract was approximately $3.5 million.

           This contract provides transportation and media vault storage services for the SSC as
           part of the Agency’s Disaster Recovery Program. Under this contract, SSA stores
           current copies of all procedures, computer programs, operating instructions, and critical

           1
             Office of Management and Budget (OMB) Circular A-130, Security of Federal Automated Information
           Resources, Appendix III requires that agencies maintain disaster recovery and continuity of operations
           plans for all information technology installations should events occur that prevent normal operations at the
           installation. Federal Information Security Management Act of 2002, Pub. L. No. 107-347, Title III, Section
           301 § 3544(b)(8), 44 U.S.C. § 3544(b)(8) requires that each agency develop, document, and implement
           an agency-wide information security program that includes plans and procedures to ensure continuity of
           operations for information systems that support the operations and assets of the agency. National
           Institute of Standards and Technology (NIST), p.10, May 2010, Special Publication 800-34 Revision 1,
           Contingency Planning Guide for Federal Information Systems, states disaster recovery plan applies to
           major, usually physical disruptions to service that deny access to the primary facility infrastructure for an
           extended period. A disaster recovery plan is an information system-focused plan designed to restore
           operability of the target system, application, or computer facility infrastructure at an alternate site after an
           emergency.
Page 2 - The Commissioner


data at secure, remote vault facilities maintained by the contractor. SSA also acquired
storage services for a Secondary off-site storage facility 2 as a backup for the SSC
Primary off-site storage facility. Until SSA is confident it can back up all critical
workloads housed at its SSC to its National Computer Center and from the National
Computer Center to the SSC with 1 hour loss of data, the off-site storage facility is
critical to SSA’s operations. In the event of a catastrophic event at either data center,
the Agency would have a backup of its critical workloads. 3

To meet our audit objectives, we (1) reviewed and compared physical security criteria
for off-site storage facilities to the physical security observed at the contractor’s off-site
facilities, (2) examined the current contract and modifications; (3) conducted a physical
security review of the contractor’s Primary and Secondary off-site storage facilities;
(4) observed the transport of SSA’s media between the SSC and the contractor’s
Primary and Secondary off-site storage facilities; and (5) interviewed SSA and
contractor personnel. The scope of this review was limited to the contract’s physical
security requirements.

RESULTS OF REVIEW
Based on our audit results, 4 we determined the physical security at the contractor’s off-
site storage locations generally complied with Federal laws; regulations; and some, but
not all, of the contract requirements. We believe the issues discussed below could have
been prevented with improved contract oversight performed by SSA.

During our review, we noted areas where the contractor needed to improve its physical
security at its off-site locations to comply with contract requirements. Specifically, we
found that the contractor should improve

•     access controls to SSA’s media;
•     environmental controls; and
•     fire protection for its Secondary off-site storage facility’s vault.




2
 The Secondary storage facility serves as a form of disaster recovery insurance against an event, or
series of events, affecting the National Computer Center, SSC, Primary off-site storage facility, and
vehicles transporting SSA media during the same period. This facility will be used to store an older/aged
set of media collected under SSA's tape backup procedures.
3
    Enumeration and claims administration for benefits and post-entitlements under Titles II and XVI.
4
 During our audit, we reviewed the physical security criteria for off-site storage facilities, interviewed
contractor and SSA management, and observed the contractor’s two off-site locations and the process
used to deliver SSA’s media to the off-site facilities.
Page 3 - The Commissioner


Access Controls to SSA’s Media

During our review, we found access to SSA’s media was not limited to authorized and
adjudicated 5 contractor employees, as required by the contract. This occurred because
the contractor did not limit access to SSA’s media from other customers’ media or only
contractor employees who had proper SSA suitability determinations. We discussed
these issues with the contractor, which stated that all of its employees needed access to
the vaults to service the contractor’s other clients.

According to the contract, “The contractor shall provide controlled access to the storage
vault/facility.” 6 Also, “…only individuals who have been adjudicated by SSA can have
access to the vault where SSA’s data is stored.” 7 In addition, the contract required that
all contractor employees (truck drivers, contractor management, etc.) who visit an SSA
facility obtain a credential 8 after the Agency conducts a favorable background
investigation.

SSA’s media is stored in sliding storage cabinets 9 at both the Primary and Secondary
off-site storage vaults. The cabinets are aligned in rows, and each cabinet has vertical
slide-out drawers with shelves for media storage. While SSA’s media is stored in an
individual cabinet, the cabinets are not individually locked. The contractor used a cable
to lock each group of cabinets as opposed to locking each cabinet individually. As a
result, the contractor’s employees can access SSA’s cabinets when accessing other
customer’s cabinets. Furthermore, not all contractor employees who had access to
SSA’s media had a background check and had been properly adjudicated by SSA.

At the time of our visits, 10 SSA had given only 4 of the 17 contractor employees at the
Primary storage facility and 7 of 29 contractor employees at the Secondary storage




5
 Appropriate background investigations are required for all contractors before they begin work under this
contract and/or access SSA systems, information, and facilities. Section E-18, b.
6
    Section C-4, A. fifth paragraph, first sentence.
7
    Section C-4, A. fifth paragraph, second sentence.
8
  For Federal agencies, a credential is a Government-issued card/badge used to prove an individual’s
identity. SSA issues credentials to employees and contractors whom it determines are suitable. An
employee or contractor can use the credential to gain access to a Government facility, computer systems,
or information.
9
 At the time of our review, SSA was storing approximately 3,400 tapes at the Primary storage facility and
2,400 tapes at the Secondary storage facility.
10
     We visited the facilities during the week of January 9, 2012.
Page 4 - The Commissioner


facility the appropriate background check. 11 In addition, three truck drivers from the
Primary storage facility had not received a proper background check and therefore did
not get the proper credentials to access SSA’s facilities to pick up the Agency’s back-up
media. However, the four drivers from the Secondary storage facility had received a
proper background check but did not have the proper credentials to access SSA’s
facilities.

As a result, SSA’s sensitive media is at risk of loss of confidentiality, integrity, and
availability. Therefore, we recommend SSA ensure the contractor stores the Agency’s
media in individually locked cabinets that can only be accessed by contractor
employees who received proper adjudication by SSA.

Environmental Controls

During our review, we found the following environmental control concerns that could
subject SSA’s media to loss or damage.

1. The contractor may not have been able to timely restore vault temperature and
   humidity to acceptable levels when environmental readings fall outside the
   acceptable ranges.
2. The contractor was not able to monitor temperature and humidity levels in the trucks
   that transported SSA’s media.
3. The contractor did not implement safeguards to prevent loss or damage to SSA’s
   media from electronic/radiation threats. 12

Restoration of Vault Temperature and Humidity Levels

We found that during non-operating hours (11:30 p.m. to 7 a.m.), the contractor relied
on a third-party contractor to monitor and report the temperature and humidity levels in
the storage vaults. However, when the temperature and humidity levels fell outside
acceptable levels, 13 the contractor was unable to immediately restore the temperature
and humidity levels to the required levels.




11
  The contractor stated that 16 of its 46 employees worked on SSA’s contract, but all 46 employees had
access to the vault where SSA’s media was stored. The contractor provided a list of all its employees for
both of the off-site storage locations and a list of employees who only worked on SSA’s contract. In
addition to the contractor’s lists, we received a list from SSA. However, we could not reconcile these lists;
therefore, we used the total employees from the contractor’s list.
12
     We consider magnetic threats to be a part of electronic/radiation threats.
13
   NIST standards require temperature readings to be minimum of 60 degrees Fahrenheit and maximum
of 70 degrees Fahrenheit. Also, humidity readings must be 35 percent minimum and 45 percent
maximum. The contract allows for a +/- 5 percent variation for temperature and humidity levels.
Page 5 - The Commissioner


The contract states that “. . . the facility shall be temperature and humidity controlled in
accordance with NIST standards.” 14 Federal standards require that agencies’ media be
stored in an environment where temperature and humidity levels must be maintained
within a specific range. 15

We discussed this issue with the SSA representatives, who told us the contractor stated
that when the temperature and humidity levels are improper, the contractor requests a
service visit from a heating, ventilation, and air conditioning vendor at the first
opportunity and arranges for the unit to be assessed within 24 hours. 16 However, we
are concerned that process could take more than 1 day, thereby exposing SSA’s media
to loss or damage.

Transportation of SSA’s Media

We found SSA’s contractor did not implement environmental controls to monitor and
record temperature readings in the trucks used to transport SSA’s media to the
Secondary storage facility.

According to the contract, the contractor’s trucks should maintain a temperature
between 50 and 80 degrees Fahrenheit at all times while carrying cargo. 17 Moreover,
the contractor should take daily temperature readings in the cargo area and supply SSA
with those readings monthly as part of the required report documentation. 18 Further, the
contract requires weekly pick-ups to the Secondary storage facility.

On January 10, 2012, we observed the contractor transporting and receiving SSA’s
media from the Secondary storage facility to SSA’s SSC. The temperature on that day
was below 50 degrees Fahrenheit. Additionally, the average temperature in the region
where the Secondary storage facility is located ranges from a low of 30 degrees
Fahrenheit to over 80 degrees Fahrenheit. The contractor must monitor and maintain
the temperature and humidity levels in its delivery trucks to protect SSA’s media from
extreme cold, heat, or humidity.

We requested the technical proposal the contractor submitted in response to SSA’s
Request for Proposal. SSA’s Request for Proposal requires that the delivery truck’s
transport area be closed to the driver by a solid wall and securely locked while in use.

14
     Section C-4, B.
15
     National Archives and Records Administration 36 C.F.R., 1236.28 (a) (1) (2).
16
  During operating hours, when temperature and humidity levels are improper, the contractor implements
the same process for operating hours to restore readings to normal. According to SSA, the contractor
stated the third party heating, ventilation, and air conditioning vendor is required to respond and repair the
unit within 4 to 6 hours the same day of the service request.
17
     Section C-4, H.
18
     Id.
Page 6 - The Commissioner


In addition, cargo must be kept at 50 to 80 degrees Fahrenheit at all times while it is
being transported. Finally, SSA required that the contractor use appropriate equipment
to take daily temperature readings in the cargo area and supply these readings each
month as part of the required report documentation.

The contractor responded,

     We customize our pickup, delivery and tape rotation schedules around your
     backup requirements and business needs. Your backup media is transported in
     our environmentally controlled and secure vehicles to one of our vaults. Specially
     screened and trained personnel ensure your data is protected from contamination,
     exposure and security threats at all times and daily temperature readings are
     recorded 24/7. Once a month the temperature gauge is connected to a computer
     and the recorded readings can be printed out for SSA.

We also reviewed the Evaluation Score Sheet including the Site Visit Checklists the
Contracting Officer Technical Representative (COTR) used during the pre-award on-site
evaluation to determine whether the transportation vehicles were inspected before the
contract was accepted. The COTR gave a “pass” on “Truck/Vehicle Requirements –
Temperature Controlled – 50-80 degrees.”

We discussed this issue with the Agency representatives, and, according to these
individuals, the contractor stated the Secondary storage facility’s trucks did not have a
mechanism to monitor and record daily temperature readings of SSA’s magnetic media
during transit. Consequently, the contractor did not meet the contract’s requirements.

It is important that the contractor implement proper environmental controls for its trucks
because SSA’s media is sensitive to temperature. Without the proper controls to
ensure adequate temperature levels, SSA’s media is at risk of loss or damage and may
not function properly when the Agency needs it for disaster recovery. Therefore, we
recommend SSA ensure the contractor maintains the proper temperature and humidity
levels as specified in the contract at all times while the Agency’s media is in transit and
storage. In addition, SSA needs to ensure the contractor’s Secondary storage facility
provides the Agency with the required report documentation for delivery truck
temperature and humidity readings as specified by the contract.

Protection from Electronic/Radiation Threats

We found the contractor did not protect SSA’s media from electronic/radiation threats.
The contract stated that “. . . the contractor shall provide a storage facility that is
physically secure from fire, flood, theft, and damage (physical and/or
electronic/radiation).”

We requested documentation that demonstrated the contractor’s compliance with this
contract clause; however, the contractor could not provide evidence that its storage
Page 7 - The Commissioner


facility provided protection from electronic/radiation threats. Further, we discussed this
issue with the contractor. The contractor stated that lead sheathing19 was not installed
in the vault walls during construction.

The backup media stored at the off-site facilities are critical for SSA’s disaster recovery
and continuity of operations. Therefore, we recommend SSA ensure the contractor’s
storage facility vaults meet the contract requirements for protection from electronic/
radiation threats.

Fire Protection for Secondary Storage Facility Storage Vault Needed Improvement

Finally, we found the contractor’s storage vault at the Secondary storage facility needed
improvement to protect SSA’s media from loss or damage due to a fire. The contract
requires that the contractor provide a storage facility that is physically secure from fire
and all fire doors provide 4 hours or greater protection. 20 However, the storage vault at
the Secondary storage facility only provided 1.5 hours of fire protection. We discussed
our concerns with the contractor who stated that they plan to replace the vault doors
with doors having a 3-hour fire protection rating sometime in 2012. While this would be
an improvement, the vault doors still would not meet contract requirements.

We requested the technical proposal the contractor submitted in response to SSA’s
Request for Proposal. Our review of the contractor’s technical proposal indicated that
the Agency requested vault doors to protect SSA’s media from fire for 4 hours or longer.
The contractor responded that its “. . . facilities are designed and constructed in
accordance with all applicable local and national codes. Specifically, facilities meet all
requirements of the local Authorities Having Jurisdiction (AHJ) and National Fire
Protection Association (NFPA) standards 13, 25 and 72 at the time the facility was
built.” We reviewed the NFPA standards 13, 25, and 72 and determined that they do
not apply to fire door protection.

We discussed our concerns with the Contracting Officer (CO). The CO stated that the
COTR conducted a technical evaluation of the contractor’s facilities before award. The
COTR documented the evaluation in the Evaluation Score Sheet. The COTR’s
evaluation indicated that the contractor’s vault was rated as “excellent.” 21 We reviewed
the Evaluation Score Sheet and determined that the COTR may not have inspected the
vault doors and instead relied on the General Services Administration or Underwriters
Laboratories certifications during the technical evaluation. Further, the CO replied that

19
     According to contractor, lead sheathing in vault walls deters penetration of magnetic waves.
20
  Section C-4, A. paragraph one states, “The contractor shall provide a storage facility that is physically
secure from fire, flood, theft, and damage (physical and/or electronic/radiation) for backup/archival
storage of SSA’s magnetic media.”
21
  According to the Evaluation Score Sheet, “Excellent” means that this area of the proposal far exceeds
the minimum requirements of the Request for Proposal. One or more vault(s) have certifications such as
General Services Administration or Underwriters Laboratories. Numerous major strengths exist.
Weaknesses, if any, are very minor and very few.
Page 8 - The Commissioner


“. . . only the most important requirements were inspected; however, the contractor was
still required to comply with all contract requirements.” As a result of our review, we
recommend SSA ensure the contractor’s Secondary storage facility vault doors meet
the contract requirements for fire protection.

SSA Needs to Improve Contractor Oversight

As stated above, we believe SSA could have prevented the issues discussed in this
report with improved contract oversight. Agency policy states that the COTR should
monitor the contractor’s performance and report progress to the CO. 22 Therefore, we
recommend SSA improve its oversight of this contract and timely resolve any contract
deficiencies with the contractor.

We discussed our concerns with the CO and the current COTR. We were told that the
original COTR retired in 2011. In addition, we were told that there were no on-site
inspections before 2012, with the exception of the pre-award site inspection. However,
the CO stated that because of this review, the contract will be modified in areas that
require changes; but the Agency will mostly continue to enforce current requirements.
Moreover, the COTR stated that he will work with the contractor to ensure all contractor
employees receive the appropriate background checks and credentials.

CONCLUSION AND RECOMMENDATIONS
We determined that the physical security at the contractor’s off-site storage locations
generally complied with Federal laws, regulations, and some, but not all, of the contract
requirements. However, we noted areas where the contractor could improve the
physical security in the areas of access and environmental controls and fire protections
of its storage facilities to comply with all contract provisions.

Therefore, we recommend SSA:

1. Ensure the contractor stores the Agency’s media in individually locked cabinets that
   can only be accessed by contractor employees who received proper adjudication by
   SSA.
2. Ensure the contractor maintains the proper temperature and humidity levels as
   specified in the contract at all times while the Agency’s media is in transit and
   storage.
3. Ensure the contractor’s Secondary storage facility provides the Agency with the
   required report documentation for delivery truck temperature and humidity readings
   as specified by the contract.
4. Ensure the contractor’s storage facility vaults meet the contract requirements for
   protection from electronic/radiation threats.

22
 Administrative Instructions Manual System, Technical Support for Acquisitions-The Role of the
Contracting Officer’s Technical Representative, Section 06.05.02, B.
Page 9 - The Commissioner


5. Ensure the contractor’s Secondary storage facility vault doors meet the contract
   requirements for fire protection.
6. Improve its oversight of this contract and timely resolve any contract deficiencies
   with the contractor.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix C for the Agency’s comments.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
AHJ           Authorities Having Jurisdiction
C.F.R.        Code of Federal Regulations
CO            Contracting Officer
COTR          Contracting Officer Technical Representative
NFPA          National Fire Protection Association
Pub. L. No.   Public Law Number
NIST          National Institute of Standards and Technology
OMB           Office of Management and Budget
SP            Special Publication
SSA           Social Security Administration
SSC           Second Support Center
U.S.C.        United States Code
                                                                     Appendix B

Scope and Methodology
To meet the objectives of our review, we performed the following procedures.

1. Examined the original and current versions of the Social Security Administration’s
   (SSA) off-site storage contracts and modifications.
2. Reviewed applicable Agency contract management policies and procedures.
3. Conducted a physical security review of the contractor’s Primary and Secondary off-
   site storage facilities.
4. Observed the transport of SSA’s media between the Second Support Center and the
   contractor’s Primary and Secondary off-site storage facilities.
5. Interviewed SSA and contractor personnel.

We also reviewed the following.

•   The Privacy Act of 1974, as amended, 5 U.S.C. 552a;
•   The Federal Information Security Management Act of 2002;
•   Office of Management and Budget Circular A-130, Management of Federal
    Information Resources, Appendix III, Security of Federal Automated Information
    Resources, February 8, 1996;
•   National Institute of Standards and Technology (NIST), Special Publication (SP)
    800-12, An Introduction to Computer Security: The NIST Handbook, October 1995;
•   NIST, SP 800-53, Revision 3, Recommended Security Controls of Federal
    Information Systems and Organizations, August 2009;
•   NIST, SP 800-34 Revision 1, Contingency Planning Guide for Federal Information
    Systems, May 2010;
•   General Services Administration, Federal Specification Modular Vault Systems, AA-
    V2737 Amendment-2, October 2006;
•   Internal Revenue Service, Tax Information Security Guidelines for Federal, State,
    and Local Agencies, Safeguards for Protecting Federal Tax Returns and Return
    Information, Publication 1075, October 2007;
•   National Archives and Records Administration 36 Codes of Federal Regulations.
    1236.28, Subpart C Additional Requirements for Electronic Records, November
    2009.




                                          B-1
We performed our fieldwork at the contractor’s two facilities and SSA’s Headquarters
from September 2011 through March 2012. We audited the off-site facility owner and
the Offices of Systems and Budget, Finance and Management. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                        B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 5, 2012                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Physical Security of the Social Security
           Administration’s Contractor Owned and Operated Off-site Storage Facility” (A-14-12-11227)—
           INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“PHYSICAL SECURITY OF THE SOCIAL SECURITY ADMINISTRATION’S
CONTRACTOR OWNED AND OPERATED OFF-SITE STORAGE FACILITY”
(A-14-12-11227)


GENERAL COMMENT

Page 8, last paragraph, last 2 sentences read:

“SSA’s media stored at these off-site locations are critical to the Agency’s ability to recover quickly from
a catastrophic disaster. The loss or severe damage to these media could significantly delay SSA’s ability
to continue operating and serving its customers.”

Comment

Please remove or revise these statements, as it is incorrect to associate quick disaster recovery
time with a media tape-based environment. We have essentially eliminated our reliance on tape
media for continuity of operations in all but the least likely disaster scenarios. The duplication of
data between the National Computer Center and Second Support Center is our primary method
of data recovery. During the June 2012 disaster recovery exercise, we demonstrated the ability
of each center to support production workloads in a disaster scenario within the Information
Technology Operations Assurance Recovery Time Objective and the Recovery Point Objective
without using a tape for recovery.

RESPONSES TO THE RECOMMENDATIONS

Recommendation 1

Ensure the contractor stores the Agency’s media in individually locked cabinets that can only be
accessed by contractor employees who received proper adjudication by SSA.

Response

We agree.

Recommendation 2

Ensure the contractor maintains the proper temperature and humidity levels as specified in the
contract at all times while the Agency’s media is in transit and storage.

Response

We agree with the need to maintain proper temperature. The contractor took steps to ensure
temperature control for the cited truck. However, there is an inconsistency in the contract with
regard to humidity that we need to address. Under Section C-4, of the Detailed Mandatory
Requirements contract titled “Transportation” only requires temperature monitoring, but Section
E-11 of the contract, Subsection H, entitled “Deliverables” requires the truck reports to include
both temperature and humidity readings. Our requirement is for tracking temperature onlyso we
will modify the contract to remove the humidity requirement.
                                                    C-2
Recommendation 3

Ensure the contractor’s Secondary storage facility provides the Agency with the required report
documentation for delivery truck temperature and humidity readings as specified by the contract.

Response

We agree with the exception of the humidity readings as noted in our response to
Recommendation 2 above.

Recommendation 4

Ensure the contractor’s storage facility vaults meet the contract requirements for protection from
electronic/radiation threats.

Response

We agree. However, we re-assessed this requirement and determined that the chance of loss of
data due to “electronic/radiation threats” is extremely rare. Additionally, we found no
regulations mandating this level of protection. Since we determined this requirement
unnecessary, we will modify the contract to remove the requirement.

Recommendation 5

Ensure the contractor’s Secondary storage facility vault doors meet the contract requirements for
fire protection.

Response

We agree. We researched this requirement further, and found that the minimal level of fire
protection for a vault door in accordance with the National Archives and Records Administration
(NARA) Code of Federal Regulations Title 36, Chapter XII, Subchapter B Records
Management, Part 1234 Facility Standards for Records is three hours (class A door). Therefore,
we determined the four-hour requirement excessive, and we modified the contract to conform to
the NARA regulation. We consider this recommendation closed.

Recommendation 6

Improve its oversight of this contract and timely resolve any contract deficiencies with the
contractor.

Response

We agree.




                                               C-3
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division

   Grace Chi, Audit Manager

Acknowledgments

In addition to those named above:

   Tina Nevels, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-14-12-11227.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
